                                            NATIONAL SCIENCE FOUNDATION
                                            OFFICE OF INSPECTOR GENERAL
                                              OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

Case Number: A01 120046                                                             Page 1of 1

      At the end of December 2001, the complainant1 emailed NSF with concerns about a
      possible violation of the confidentiality of peer review resulting in intellectual theft.
      Specifically, the complainant had noted that a recent publication by the subject2
      contained remarkable similarities to the ideas in the complainant's proposal
      submitted to NSF.

     We asked the complainant for information related to the allegation. Upon further
     review, the complainant noticed that the subject's publication was submitted to the
     journal before the proposal was submitted to NSF. Thus, there is no evidence to
     support the allegation. Accordingly, this case is closedand no further action will be
     taken.




         1   (footnote redacted)
         2   (footnote redacted)


                           Agent   .         Attorney            Supervisor               AIGI

 Sign I date     I                     I                  I                     I
